OFFICE OF INSPECTOR GENERAL 


AUDIT OF THE INTER­
AMERICAN FOUNDATION'S
FISCAL YEAR 2013
COMPLIANCE WITH THE
FEDERAL INFORMATION
SECURITY MANAGEMENT ACT
OF 2002
AUDIT REPORT NO. A-IAF-13-007-P
SEPTEMBER 30, 2013



WASHINGTON, D.C.
This is a summary of our report on the "Audit of the Inter-American Foundation's Fiscal Year
2013 Compliance With the Federal Information Security Management Act of 2002" (Report
No. A-IAF-13-007-P). The Office of Inspector General (OIG) contracted with the independent
certified public accounting firm of CliftonLarsonAlien LLP to conduct the audit. Clifton was
required to conduct the audit in accordance with generally accepted government auditing
standards. The objective was to determine whether the Inter-American Foundation (IAF)
implemented selected minimum security controls for selected information systems in support of
the Federal Information Security Management Act of 2002 (FISMA).

To answer the audit objective, Clifton assessed whether IAF implemented selected
management, technical, and operational controls outlined in National Institute of Standards and
Technology Special Publication 800-53, Recommended Security Controls for Federal
Information Systems and Organizations, Revision 3. Clifton performed audit fieldwork at IAF's
headquarters in Washington, D.C., from April 26, 2013 through August 6,2013.

The audit concluded that IAF implemented 71 of 85 tested security controls in support of
FISMA. For example, IAF:

• 	 Established adequate information technology security policies and procedures.

• 	 Implemented an effective incident handling and response program.

• 	 Maintained adequate control over physical access to facilities and the computer room.

• 	 Established adequate processing procedures for bringing on new employees and for
    employees leaving the organization.

However, Clifton concluded that IAF's operations and assets might be at risk of misuse and
disruption. Therefore, the report made eight recommendations to help IAF strengthen its
information security program. Although OIG acknowledged IAF's management decisions on
each of those recommendations, it did not agree with IAF's management decision for four of
them. Therefore, OIG encouraged IAF to revise them to fully address the weaknesses identified
in Clifton's audit report.
u.s. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov 

